V

iHutteti States; Court of Uppeate
for tf)e jfittl) Circuit
No. 19-41057

United States Court of Appeals
Fifth Circuit

FILED
February 25, 2021
Gerald Patrick Thomas, Jr. >
Petitioner—Appellant

Lyle W. Cayce
Clerk

versus
Bobby Lumpkin, Director, Texas Department of Criminal
Justice, Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
USDCNo. 2:17-CV-322
ORDER:
IT IS ORDERED that Appellant’s motion for a certificate of appealability is
DENIED.

Carl E. Stewart
United States Circuit Judge

APPENDIX "A"

Case 2:17-cv-00322-JRG-RSP Document 21 Filed 12/09/19 Page 1 of 2 PagelD #: 1791

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
GERALD P. THOMAS, #1415141

§

VS.

§

LOR1E DAVIS, DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 2:17cv322

ORDER OF DISMISSAL
Petitioner Gerald Patrick Thomas, Jr., an inmate currently confined at Polunsky Unit within
the Texas Department of Criminal Justice, proceeding pro se and in forma pauperis, filed this
petition for a writ of habeas corpus under 28 U.S.C. § 2254 alleging the illegality of his Harrison
County convictions. The cause of action was referred to the United States Magistrate Judge, the
Honorable Roy S. Payne, for findings of fact, conclusions of law, and recommendations for the
disposition of the petition.
Judge Payne issued a Report, (Dkt. #16), finding that Petitioner’s habeas petition was a
successive petition and that Petitioner had not received permission from the Fifth Circuit before
filing this petition. Therefore, Judge Payne recommended that his successive petition be dismissed
with prejudice as to its refiling without permission from the Fifth Circuit Court of Appeals—but
without prejudice as to its refiling once permission has been obtained. See 28 U.S.C. §2244(b)
(3). Judge Payne also recommended that a certificate of appealability be denied sua sponte.
Petitioner Thomas has filed objections, (Dkt. #18).
The court has conducted a careful de novo review of record and the Magistrate Judge’s
proposed findings and recommendations. See 28 U.S.C. §636(b)(l) (District Judge shall “make a
de novo determination of those portions of the report or specified proposed findings or
recommendations to which objection is made.”). Upon such de novo review, the court has

1

Case 2:17-cv-00322-JRG-RSP Document 21 Filed 12/09/19 Page 2 of 2 PagelD #: 1792

determined that the Report of the United States Magistrate Judge is correct, and Petitioner’s
objections are without merit. Accordingly, it is
ORDERED that the Report of the United States Magistrate Judge, (Dkt. #16), is
ADOPTED as the opinion of the Court. Petitioner’s objections, (Dkt. #18), are overruled.
Further, it is
ORDERED that Petitioner’s habeas petition is DISMISSED with prejudice as to its
refiling without permission from the Fifth Circuit Court of Appeals—but without prejudice as to
its refiling once such permission has been obtained. Moreover, it is
ORDERED that Petitioner is DENIED a certificate of appealability sua sponte. Finally,
it is
ORDERED that any and all motions which may be pending in this civil action are hereby
DENIED.
So ORDERED and SIGNED this 9th day of December, 2019.

f

RODNEY GIL STRAP
UNITED STATES DISTRICT JUDGE

2

Case 2;17-cv-00322-JRG-RSP Document 16 Filed 02/19/18 Page 1 of 9 PagelD #: 1740

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
GERALD P. THOMAS, #1415141

§

VS.

CIVIL ACTION NO. 2:17cv322

LORIE DAVIS, DIRECTOR, TDCJ-CID
REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Petitioner Gerald Patrick Thomas, Jr., (Thomas), an inmate currently confined at Polunsky
Unit within the Texas Department of Criminal Justice, proceeding pro se and in forma pauperis, filed
this petition for a writ of habeas corpus under 28 U.S.C. § 2254 alleging the illegality of his Harrison
County convictions. The cause of action was referred for findings of fact, conclusions of law, and
recommendations for the disposition of the petition.
I. Procedural Background
A jury convicted Thomas of guilty of two counts of indecency with a child, four counts of
sexual performance by a child, one count of sexual assault, and three counts of aggravated sexual
assault. He pleaded guilty to an additional count of possession of child pornography. After his
conviction, on February 3, 2003, the jury assessed punishment at the maximum for each count—for
a total of 397 years’ imprisonment.
Thomas subsequently filed a direct appeal, in which his convictions were affirmed by the
Sixth Circuit Court of Appeals on March 3, 2004, cause number 06-03-00115-CR. See Thomas v.
State, 2004 WL 384165 (Tex.App.—Texarkana 2004, no pet.) (not designated for publication). He
did not file a petition for discretionary review. Thomas filed his first state habeas application in May
2005, which was denied in April 2007 after a hearinj^He then filed three additional state habeas^
applications, all of which were denied as successive. Thomas filed his first federal habeas petition

1
APPENDIX "C"

Case 2:17-cv-00322-JRG-RSP Document 16' Filed 02/19/18 Page 2 of 9 PagelD #: 1741

with this Court in October 2007, case number 9:07-cv-257, which was dismissed as time-barred. He
then filed this current habeas petition in April 2017.
II. Factual Background
The Sixth Court of Appeals summarized the facts of the case as follows:
Thomas was a pastor at the Good Shepard Lutheran Church in Marshall, Texas. While serving
as a pastor, Thomas befriended several neighborhood boys. The charges in this case involved
three boys: T.M., L.W., and J.S.
Thomas volunteered to be a mentor at a local school and was assigned to be T.M.’s mentor.
For the first couple of weeks, they met at the school, but Thomas soon began inviting T.M.
over to his house approximately twice a week. On one such occasion, Thomas performed oral
sex on T.M. At the time of the abuse, T.M. was over fourteen years old but less than seventeen
years old.
After T.M. moved to Oklahoma, Thomas befriended L.W. and J.S. Thomas made the
acquaintance of L.W. during a community football game near the Good Shepard Church. J.S.
met Thomas through a mentoring program at school. Thomas began taking J.S., L.W., and
K.D., L.W.’s six or seven-year old brother, out to eat, to the mall, and to movies. After a few
months, Thomas started inviting the boys over to his house. During this time, Thomas
exposed his privates in the presence of J.S. and L.W. J.S. and L.W. recorded a compact disk
on Thomas' computer on which they exposed their genitals and committed sexual acts.
Thomas made a brief appearance on the compact disk. The compact disk contained several
different sections which had images of the two young boys. In some of the sections, the boys
were just “clowning around” or engaging in “locker room” activity, but other sections
contained sexual activity.
When S.J. got in trouble and was sentenced to a “boot camp” program in juvenile court, he
started staying overnight at Thomas’ house during the week because Thomas had agreed to
provide him transportation to “boot camp.” During this time, J.S. would sleep in the same bed
as Thomas. On three separate nights, Thomas penetrated J.S.’s anus with his penis. J.S. was
thirteen years old at the time he was abused.
Thomas met a number of area youths who played basketball and computer games at the
church. Besides these three victims, other youths were invited to Thomas’ house. One of
these boys, J.H., found a disk which contained a recording of J.S. and L.W. exposing their
genitals and committing sexual acts. J.H. attempted to use the disk to blackmail Thomas into
purchasing a truck for him. Although J.H. and Thomas test drove some vehicles, Thomas did
not buy J.H. a truck. The Federal Bureau of Investigation (F.B.I.) became aware of the disks
existence and seized it during a search of J.H.’s house. Eventually, several neighborhood boys
informed the investigators that Thomas had sexually abused them. Thomas was arrested and
interviewed by the F.B.I. In his statement to the F.B.I., Thomas denied the sexual abuse and
denied any possession of child pornography. He stated he had instructed the two boys who
made the recording to stop recording the video and had erased the recording from his
computer.
2

Case 2:17-cv-00322-JRG-RSP Document 16 Filed 02/19/18 Page 3 of 9 PagelD #: 1742

John Wiechman, an expert in computer forensic investigation, recovered thousands of files
containing child pornography and new group messages regarding child pornography on
Thomas’ computer. In addition, four video files were found in which J.S. is seen, alone,
talking to the camera and masturbating.
A federal grand jury was the first to indict Thomas. Eventually, Thomas pled guilty to the
charge of possession of material involving sexual exploitation of minors. Thomas was
sentenced in the United States District Court for the Eastern District of Texas to sixty months’
imprisonment.
Nine days after the judgment in federal court, Thomas was indicted by a state grand jury in
Harrison County on twelve counts of state offenses committed during his pattern of sexual
abuse. Before the reading of the indictment, the State dropped one of the counts.
Thomas, 2004 WL 384165 at *1-2.
III. Thomas’s Federal Habeas Petition, the Response, and his Reply
Thomas maintains that trial counsel was ineffective for (1) failing to object to the admission
of third-party extraneous offenses/bad acts or to seek a limiting instruction; (2) failing to seek
suppression of evidence which was the product of an illegal private search; (3) failing to object to
inadmissible testimony regarding attempted suicide attempts by the complainant; (4) failing to object
to the State’s improper closing remarks; (5) failing to seek severance on the indictment; (6) failing to
advise on a plea agreement; and (7) cumulative error.
In response, Respondent argues that Thomas’s entire petition is time-barred through the
statute of limitations and is not entitled to equitabie tolling. Thomas has filed a reply, objecting to
certain facts and claiming his petition is not barred because it is second federal habeas petition—citing
Martinez v. Ryan, 132 S.Ct. 1309 (2012), and Trevino v. Thaler, 133 S.Ct. 1911 (2013). He claims
that he was not afforded an avenue to present a “meaningful” habeas application in state court, and
requests that this Court rule on the merits of his claims.
IV. Standard of Review
The role of federal courts in reviewing habeas corpus petitions filed by state prisoners is
exceedingly narrow. A prisoner seeking federal habeas corpus review must assert a violation of a

3

Case 2:17-cv-00322-JRG-RSP Document 16' Filed 02/19/18 Page 4 of 9 PagelD #: 1743

federal constitutional right; federal relief is unavailable to correct errors of state constitutional,
statutory, or procedural law unless a federal issue is also present. See Lowery v. Collins, 988 F.2d
1364, 1367 (5th Cir. 1993); see also Estelle v. McGuire, 503 F.3d 408, 413 (5th Cir. 2007) (“We first
note that ‘federal habeas corpus relief does not lie for errors of state law.’”) (internal citation omitted).When reviewing state proceedings, a federal court will not act as a “super state supreme court” to
review error under state law. Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007).
Furthermore, federal habeas review of state court proceedings is governed by the
Antiterrorism and Effective Death Penalty Act (AEDPA) of 1996.

Under the AEDPA, which

imposed a number of habeas corpus reforms, a petitioner who is in custody “pursuant to the judgment
of State court” is not entitled to federal habeas corpus relief with respect to any claim that was
adjudicated on the merits in State court proceedings unless the adjudication of the claim—
1. resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established law, as determined by the Supreme Court of the United States;
or
2. resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceedings.
28 U.S.C. § 2254(d). The AEDPA imposes a “highly deferential standard for evaluating state court
rulings,” which demands that federal courts give state court decisions “the benefit of the doubt.” See
Renico v. Lett, 559 U.S. 766, 773 (2010) (internal citations omitted); see also Cardenas v. Stephens,
820 F.3d 197, 201 -02 (5th Cir. 2016) (“Federal habeas review under the AEDPA is therefore highly
deferential: The question is not whether we, in our i
reached the wrong result. Rather, we ask only whether the state court’s judgment was so obviously
incorrect as to be an objectively unreasonable resolution of the claim.”). Given the high deferential
standard, a state court’s findings of fact are entitled to a presumption of correctness and a petitioner
can only overcome that burden through clear and convincing evidence. Reed v. Quarterman, 504
F.3d465, 490 (5th Cir. 2007).

4

j

Case 2:17-cv-00322-JRG-RSP Document 16 Filed 02/19/18 Page 5 of 9 PagelD #: 1744

V. Discussion and Analysis
1. Successive Federal Habeas Petitions

\T<r*
V
. As Thomas indicates, he has previously filed a federal habeas petition with this Court. The *
AEDPA also makes it significantly harder for state prisoners to file “second or successive” habeas
petitions. Specifically, section 2244 provides the following, in part:
(b)(1) A claim presented in a second or successive habeas corpus application under section
2254 that was presented in a prior application shall be dismissed.
(2) A claim presented in a second or successive habeas corpus application under section 2254
that was not presented in a prior application shall be dismissed unless—
(A) the applicant shows that the claim relies on a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme Court, that was previously
unavailable; or

r

(B)(i) the factual predicate for the claim could not have been discovered previously
through the exercise of due diligence; and

(ii) the facts underlying the claim, if proven and viewed in light of the evidence as a
whole, would be sufficient to establish by clear and convincing evidence that, but for
constitutional error, no reasonable factfinder would have found the applicant guilty of
the underlying offense.
(3)(A) Before a second or successive application permitted by this section is filed in the district
court, the applicant shall move in the appropriate court of appeals for an order authorizing the
district court to consider the application.
These provisions are intended to prevent state prisoners from abusing the writ. See Felker^y T,nTiy,>
518 U.S. 651, 664 (1996).
Importantly, as articulated in the provision, a prisoner must move in the appropriate appellate
court—which in this case is the Fifth Circuit Court of Appeals—for permission before filing the
second or successive petition; until he receives such permission, the district court lacks jurisdiction
to consider his claims. See Crone v. Cockrell, 324 F.3d 833, 836 (5th Cir. 2003) (emphasis added).
A district court should dismiss a second or successive petition for lack of subject matter jurisdiction
that has been fled without the permssiLn of the Fifth Circuit. Id.
5

Case 2:17-cv-00322-JRG-RSP Document 16 Filed 02/19/18 Page 6 of 9 PagelD #: 1745

However, the Fifth Circuit has held that a prisoner's application/petition for a writ of habeas
corpus is not deemed “second or successive” simply because itjfollows an earlier federal petition. See
In re Cain, 137 F.3d 234, 235 (5th Cir. 1998). Rather, a subsequent application is “second or
successive” when it “(1) raises a claim challenging the petitioner’s conviction or sentence that was or
could have been raised in an earlier petition; or (2) otherwise constitutes an abuse of the writ.” Id.
(citation omitted).
Here, this Court lacks jurisdiction to consider Thomas's petition because it is, indeed,
successive. He is challenging his criminal conviction by raising claims that were already raised or
could have been raised in an earlier petition. Moreover, Thomas has made no showing that he has
received permission from the Fifth Circuit to file a successive petition for the writ of habeas corpus.
In fact, on-line records of the Fifth Circuit illustrate* that the court denied his motion to file a
successive habeas petition in June 2011, case number 11-40318.

Records do not indicate that he

has sought permission since 2011. Until Thomas receives leave to file a successive petition, this
Court lacks jurisdiction to consider his claims. See Crone, 324 F.3d at 836.
Finally, Thomas maintains that the holdings Martinez and Trevino provide him with the ability
to file successive habeas petitions; however, Thomas’s contention is without merit. Neither Martinez
nor Trevino announced a new rule or constitutional law nor do they apply4etroactive$ to cases on
collateral review. See In re Paredes, 587 Fed.App’x 805, 813 (5th Cir. 2014) (“The fact is that the
fir

Supreme CourtS^^n^^nade either Martinez or Trevino retroactive to cases on collateral review
within the meaning of 28 U.S.C. § 2244.”).

Accordingly, Thomas’s reliance on these cases is

misplaced. The Court lacks jurisdiction to consider his habeas petition and, therefore, his petition
should be dismissed.

Case 2:17-cv-00322-JRG-RSP Document 16 Filed 02/19/18 Page 7 of 9 PagelD #: 1746

2. Actual Innocence
To the extent that Thomas maintains that he is actually innocent, his claim likewise fails.
Actual innocence, if proven, “serves as a gateway through which the petitioner may pass whether the
impediment is a procedural bar ... or, as in this case, expiration of the statute of limitations.” See
McQuiggen v. Perkins, 133 S.Ct. 1924, 1928 (2013). In this way, the Supreme Court explained that
tenable actual-innocence gateway pleas are rare; a petitioner does not meet the threshold requirement
unless he persuades the district court that, in light of new evidence, no juror, acting reasonably, would
have voted to find him guilty beyond a reasonable doubt. Id. {citing Schlup v. Delo, 513 U.S. 298,
329 (1995) (claim of actual innocence requires the petitioner to support his allegations of
constitutional error with new reliable evidence, whether it be exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical physical evidence which was not presented at trial)).
However, here, Thomas has not set forth a claim of actual innocence sufficient to serve as a
gateway through which to pass to avoid any procedural default. He has not set forth or presented any
new evidence. Instead, he continues to argue that trial counsel was ineffective—as he did in his
previous state habeas applications and his previous federal writ. The crux of the current ineffective
assistance claims does not involve new evidence. Consequently, Thomas’s petition should be
dismissed.
&
&

VI. Conclusion

po IAAjCM/-

t'4s vfLVt'e-*—r

Ultimately, Thomas readily admits—and records indicate—that the current federal
habeas petition is successive because it raised claims that were or could have been raised
in his previous petitions or state habeas applications. He has not received permission from the Fifth
Circuit to file a successive habeas petition in this Court and, therefore, this Court lacks jurisdiction to
consider his claims. His application for federal habeas corpus relief is thus without merit.
Ca$C
1

h&jfi,- nur-cr fetz-o*
deXL'fcttxf,

V-

Case 2:17-cv-00322-JRG-RSP Document 16 Filed 02/19/18 Page 8 of 9 PagelD #: 1747

VII. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 773 (2017). Instead,
under 28 U.S.C. § 2253(c)(1), he must first obtain a certificate ofappealability (“COA”) from a circuit
justice or judge. Id. Although Petitioner has not yet filed a notice of appeal, the court may address
whether he would be entitled to a certificate of appealability. See Alexander v. Johnson, 211 F.3d
895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate of appealability because
“the district court that denies a petitioner relief is in the best position to determine whether the
petitioner has made a substantial showing of a denial of a constitutional right on the issues before the
court. Further briefing and argument on the very issues the court has just ruled on would be
repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing of
the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution of
his constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The Supreme
Court recently emphasized that the COA inquiry “is not coextensive with merits analysis” and “should
be decided without ‘full consideration of the factual or legal bases adduced in support of the claims.’”
Buck, 137 S. Ct. 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[wjhen the district court denied
relief on procedural grounds, the petitioner seeking a COA must further show that ‘jurists of reason
would find it debatable whether the district court was correct in its procedural ruling.’” Rhoades v.
Davis, 852 F.3d 422, 427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012)). .
Here, Thomas failed to present a substantial showing of a denial of a constitutional right or
that the issues he has presented are debatable among jurists of reason. He also failed to demonstrate
8

-I

s .

Case 2:17-cv-00322-JRG-RSP Document 16 Filed 02/19/18 Page 9 of 9 PagelD #: 1748

\
y

<j

that a court could resolve the issues in a different manner or that questions exist warranting further
proceedings. Accordingly, he is not entitled to a certificate of appealability.
RECOMMENDATION
For the foregoing reasons, it is recommended that the above-styled application for the writ of
habeas corpus be dismissed with prejudice as to its refiling without permission from the Fifth Circuit,

1

but without prejudice as to its refiling once such permission has been obtained. 28U.S.C. §2244(b)(3).

to

Thomas may not refile this petition without first obtaining such leave, and the dismissal of this petition
shall have no effect upon his right to seek permission from the Fifth Circuit to file a second orsuccessivei
petition. Finally, it is further recommended that Petitioner Thomas be denied a certificate of appeal

w
0 v
<3

&

sua sponte.
• *

Within fourteen (14) days after receipt of the Magistrate Judge’s Report, any party may serve
and file written objections to the findings and recommendations contained-in the Report.
A party's failure to file written objections to the findings, conclusions and recommendations
contained in this Report within fourteen days after being served with a copy shall bar that party from
de novo review by the district judge of those findings, conclusions and recommendations and; except .
on grounds of plain error, from appellate review of unobjected-to factual findings and legal
conclusions accepted and adopted by the district court. Douglass v. United Servs. Auto Ass'n., 79
F.3d 1415, 1430 (5th Cir. 1996) (en banc).
SIGNED this 19th day of February, 2018.

UNITED STATES MAGISTRATE JUDGE

9

flfc

Case: 19-41057

Document: 00515797919

Page: 1

Date Filed: 03/26/2021

Untteb States Court of Uppeate
for tfje Jftftf) Circuit
No. 19-41057
Gerald Patrick Thomas, Jr.,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
\

Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 2:l7-CV-322
ORDER:
IT IS ORDERED that appellant’s motion for leave to file petition
for rehearing en banc out of time is DENIED.
/s/ CARL E. STEWART
Carl E. Stewart
United States Circuit Judge

APPENDIX "D"

